No. 19A869

FILED
FEB 21 2t 29
OFPCE OF THE CLI7RN

In The
SUPREME COURT OF THE UNITED STATES

Michael Harrison Lowman, Jr.,
Applicant/Petitioner
v.
United States of America,
Respondent

Application for additional Extension of Time Within Which to
File a Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fourth Circuit

Wesley S. White
State Bar No. 43916
2300 E. 7th St. Suite 101
Charlotte, NC 28204
Telephone: (702) 824-1695
E-mail: wes@weswhitelaw.com
Counsel of Record for Petitioner

RECEIVED
FEB 25 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

To the Honorable JOHN G. ROBERTS, JR., Chief Justice of the United
States Supreme Court and Circuit Justice for the Fourth Circuit:
Applicant-Petitioner, Michael Harrison Lowman, Jr., respectfully requests an
additional extension of thirty (30) days within which to file a petition for writ of
certiorari. Sup. Ct. R. 13.5. Pursuant to the Honorable Chief Justice's order of
February 3, 2020, upon Applicant-Petitioner's initial motion, the deadline for
applicant to file his petition is Thursday, March 5, 2020, which represents an initial
30-day extension from February 4, 2020. For good cause set forth herein, Applicant
asks that this deadline be extended by thirty days, so that the new deadline would
be April 6, 2020 (the 30th day actually falls on April 4, 2020, a Saturday, but
pursuant to Supreme Court Rule 30, the deadline would extend to the following
Monday).
BACKGROUND
This case arises from the Fourth Circuit's dismissal of Lowman's appeal from
the District Court. On January 3, 2019, the District Court (Western District of
North Carolina) sentenced the Petitioner to 300 months in prison, following his
guilty plea to one count of sexual exploitation of a minor, (production), 18 U.S.C.
ยง2251(a). In forming the sentence, however, the court relied on and accepted
information proffered by the government which lacked reliability and fell short of
the applicable standard of proof. The Petitioner argued on appeal that his sentence
violated his right to due process.

2

The United States, however, filed a motion to dismiss the appeal, citing the
Petitioner's waiver in his plea agreement. The Petitioner argued that the issue fell
outside the scope of the plea agreement. The Fourth Circuit, however, ruled that
"Lowman knowingly and voluntarily waived his right to appeal and that the issue
Lowman seeks to raise on appeal falls squarely within the compass of his waiver of
appellate rights", granted the government's motion, and dismissed the appeal. The
order granting the motion is attached herein as Exhibit B, and the Judgment, filed
November 6, 2020, is attached as Exhibit C.

JURISDICTION

This Court will have jurisdiction over .any timely filed petition for certiorari
in this case pursuant to 28 U.S.C. ยง 1254(1). Under Rules 13.1, 13.3, and 30.1 of the
Rules of this Court, a petition for a writ of certiorari was initially due to be filed on
or before February 4, 2020. The Petitioner's initial application requesting a 30-day
extension was granted on February 3, 2020. The application is being filed at least
ten days before the deadline for filing the petition.

REASONS JUSTIFYING AN ADDITIONAL EXTENSION OF TIME

Applicant respectfully requests the additional extension of thirty days within
which to file the petition for a writ of certiorari seeking review of the decision of the
Fourth Circuit in this case, up to and including April 6, 2020.

3

Undersigned attorney needs additional time to ensure his application to
the Supreme Court bar is properly completed and approved prior to the
filing of the petition. Undersigned attorney has not yet had the
opportunity to complete this application Undersigned counsel also wishes
for additional time to prepare the writ, so that he can thoroughly ensure
that all relevant authority for his position can be discussed, and thereby
increase his chances of the petition being granted.
The extension rule allows up to 60 days, but the Petitioner asked for (and
was granted) only 30 days initially, and therefore requests the standard
and rule-contemplated additional 30 days. This request is made in good
faith, and not for any purpose of delay or obstruction.
CONCLUSION
For the foregoing reasons, applicant respectfully requests that this Court
grant an additional extension of 30 days, up to and including April 6, 2020.
Respectfully Submitted,
February 21, 2020
/s/ Wesley S. White
Wesley S. White
State Bar No. 43916
2300 E. 7th St. Suite 101
Charlotte, NC 28204
Telephone: (702) 824-1695
E-mail: wes@weswhitelaw.com

4

EXHIBIT A

EXHIBIT A

Seareh - Supreme Court of the United States

2/21/20, 4:30 PM

Search documents in this case

) Search

No. 19A869
Title:

Michael Harrison Lowman, Jr., Applicant
v.
United States

Docketed:

February 3, 2020

Lower Ct:

United States Court of Appeals for the Fourth Circuit

Case Numbers:

(19-4103)

DATE

PROCEEDINGS AND ORDERS

Jan 31 2020

Application (19A869) to extend the time to file a petition for a writ of certiorari from February 4, 2020
to March 5, 2020, submitted to The Chief Justice.
Main Document

Lower Court Orders/Opinions

Proof of Service

Feb 03 2020

Application (19A869) granted by The Chief Justice extending the time to file until March 5, 2020.

NAME

ADDRESS

PHONE

2300 E. 7th Si, Suite 101

(702) 824-1695

Attorneys for Petitioner
Wesley S. White

Charlotte, NC 28204
wes@weswhitelaw.com
Party name: Michael Lowman
Attorneys for Respondent
Noel J. Francisco
Counsel of Record

Solicitor General

202-514-2217

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USD0J.gov

Party name: United States

https://www.supremecourtgov/search.aspx?f ilenameqdocket/DocketFiles/html/Public/19A869.html

Page 1 of 1

EXHIBIT B

EXHIBIT B

t_il../-114 Appeal.

I

uoc: its

rg: i of e

FILED: November 6, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4103
(1:17-cr-00128-MR-WCM-1)

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
MICHAEL HARRISON LOWMAN, JR., a/lc/a Mellie L,
Defendant - Appellant.

ORDER

Michael Harrison Lowman, Jr., seeks to appeal his sentence. The Government has
moved to dismiss the appeal as barred by Lowman's waiver of the right to appeal included
in the plea agreement. Upon review of the plea agreement and the Fed. R. Crim. P. 11
inquiry, we conclude that Lowman knowingly and voluntarily waived his right to appeal
and that the issue Lowman seeks to raise on appeal falls squarely within the compass of his
waiver of appellate rights. Accordingly, we grant the Government's motion to dismiss.

Case 1:17-cr-00128-MR-WCM Document 56 Filed 11/06/19 Page 1 of 2

Ub.,/-14

/Appeal:

I i -4

I u3

uoc: 06

rlieu:

II

woreu

rg: z or z

Entered at the direction of the panel: Judge Niemeyer, Judge Wynn, and Judge
Quattlebaum.

For the Court

Is/ Patricia S. Connor, Clerk

2
Case 1:17-cr-00128-MR-WCM Document 56 Filed 11/06/19 Page 2 of 2

EXHIBIT C

EXHIBIT C

UJt..../A4 /Appeal: W-41. I ui

/ilea: I imbrzuw

UOG:

rg: 1 or I

FILED: November 6, 2019

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4103
(1 : 17-cr-00128-MR-WCM-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
MICHAEL HARRISON LOWMAN, JR., a/k/a Mellie L
Defendant - Appellant

JUDGMENT

In accordance with the decision of this court, this appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
Is/ PATRICIA S. CONNOR, CLERK

Case 1:17-cr-00128-MR-WCM Document 56-1 Filed 11/06/19 Page 1 of 1

